APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Ninth Circuit (July 19, 2019) ....................... 1a
Order of the United States District Court Central
District of California Re: Defendants’ Motion
for Judgment on the Pleadings or, Alternatively, for Summary Judgment [49]
(October 4, 2017) ................................................ 9a
Relevant Constitutional and
Statutory Provisions......................................... 30a
Declaration of Richard Winger in support of
Opposition to Motion for Judgment on the
Pleadings/Summary Judgment
(June 30, 2017) ................................................. 32a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(JULY 19, 2019)
930 F.3d 1101(9th Cir. 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
ROQUE DE LA FUENTE, Rocky,

Plaintiff-Appellant,
v.
ALEX PADILLA, California Secretary of State;
STATE OF CALIFORNIA,

Defendants-Appellees.

________________________
No. 17-56668

D.C. No. 2:16-cv-03242-MWF-GJS
Appeal from the United States District Court for the
Central District of California Michael W. Fitzgerald,
District Judge, Presiding
Before: J. Clifford WALLACE, A. Wallace TASHIMA,
and M. Margaret MCKEOWN, Circuit Judges.
McKEOWN, Circuit Judge
We examine yet another state’s regulation of ballot
access as we consider a challenge to ballot qualification
laws in California, the country’s most populous state.

App.2a

See, e.g., Ariz. Libertarian Party v. Hobbs, 925 F.3d

1085 (9th Cir. 2019) (addressing Arizona ballot regulations). Together, two California ballot access laws
require independent candidates to collect signatures
from one percent of California’s registered voters—
over 170,000 signatures—to appear on a statewide
ballot. Independent presidential candidate Roque De
La Fuente challenges these requirements as unconstitutional.
After losing the 2016 Democratic presidential
primary in California, De La Fuente wanted to continue
his candidacy in the general election as an independent
candidate. But he faced what he argues is a “cost
prohibitive” obstacle: sections 8400 and 8403 of California’s ballot access laws (collectively, “Ballot Access
Laws”). Cal. Elec. Code §§ 8400, 8403. Under section
8400, independent candidates running for statewide
office must collect signatures from one percent of all
registered voters. Id. § 8400 (requiring independent
candidates to collect signatures from “voters of the
state equal to not less in number than 1 percent of
the entire number of registered voters of the state at
the time of the close of registration prior to the preceding general election”). Section 8403 requires independent candidates to collect the signatures at least
88, but no more than 193, days before the election.
Id. § 8403(a). So, in 2016, De La Fuente had to collect
178,039 valid signatures in 105 days to appear on the
general election ballot.
Assuming he needed paid canvassers and twice as
many signatures to ensure a comfortable margin of
error, De La Fuente estimated the cost of ballot access
to be three to four million dollars. He argues that such
an expense makes running statewide “cost prohibitive,”

App.3a
unconstitutionally burdening rights guaranteed by
the First and Fourteenth Amendments. De La Fuente
points out that the next highest state signature requirement is about 60,000 fewer (in Florida) and that no
independent candidate has appeared on California’s
general election ballot since 1992. De La Fuente selffunds his campaigns, and has officially declared his
2020 presidential run.
California’s Secretary of State (the “Secretary”)
contends that the Ballot Access Laws are reasonably
related to California’s regulatory interests—streamlining the ballot, avoiding ballot overcrowding, and
reducing voter confusion. Following a hearing, the
district court granted the Secretary’s motion for
summary judgment and dismissed the case.
ANALYSIS
We review de novo De La Fuente’s constitutional
challenge. Nader v. Cronin, 620 F.3d 1214, 1216 (9th
Cir. 2010). But first we address De La Fuente’s
standing. To have Article III standing, a party must
suffer an “injury in fact” that is both “concrete and
particularized” and “actual or imminent, not conjectural
or hypothetical.” Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180-81 (2000)
(citing Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61 (1992)). The “injury in fact” inquiry focuses on
“whether the party invoking jurisdiction had the
requisite stake in the outcome,” although the injury
“need not be actualized.” Davis v. Fed. Election Comm’n,
554 U.S. 724, 734 (2008).
De La Fuente has suffered a concrete injury that
is not merely speculative. De La Fuente’s declaration
confirms that he is running for President of the United

App.4a
States in 2020. Whether he will run as an independent
or in a major political party’s primary, as the Secretary
argues, does not affect his injury. Either path is all
but certain to lead to De La Fuente running as an
independent in the general election. As many wellknown and not so well-known candidates know, running
in a party’s presidential primary is no guarantee of
running as that party’s general election candidate.
De La Fuente’s experience in 2016 reflects this reality.
After De La Fuente ran (and lost) in the Democratic
primary election, the only way he could appear on
California’s presidential general election ballot was
to run as an independent. It is likely that if De La
Fuente runs in the 2020 Democratic primary, history
will repeat itself. Whichever path De La Fuente chooses,
he will suffer an “injury in fact.” He therefore has
standing. Cf. Ariz. Green Party v. Reagan, 838 F.3d
983, 987-88 (9th Cir. 2016).
We therefore proceed to the merits of De La
Fuente’s challenge. To trigger strict scrutiny of the
Ballot Access Laws, De La Fuente must first show that
they “seriously restrict the availability of political
opportunity.” Ariz. Green Party, 838 F.3d at 989 (citing
Libertarian Party of Wash. v. Munro, 31 F.3d 759,
762 (9th Cir. 1994)). This is because the “evidence that
the burden is severe, de minimis, or something in
between, sets the stage for the analysis by determining
how compelling the state’s interest must be to justify
the law in question.” Id. at 985.
We evaluate challenges to ballot access laws under
the First and Fourteenth Amendments using the
balancing framework in Anderson v. Celebrezze, 460
U.S. 780 (1983), and Burdick v. Takushi, 504 U.S.
428 (1992). See Ariz. Libertarian Party, 925 F.3d at

App.5a
1090. The balancing framework is a “‘sliding scale’—
the more severe the burden imposed, the more exacting
our scrutiny; the less severe, the more relaxed our
scrutiny.” Id. (citing Ariz. Green Party, 838 F.3d at
988). Under this “flexible standard,”
[a] court considering a challenge to a state
election law must weigh the character and
magnitude of the asserted injury to the rights
protected by the First and Fourteenth Amendments that the plaintiff seeks to vindicate
against the precise interests put forward by
the State as justifications for the burden
imposed by its rule, taking into consideration the extent to which those interests make
it necessary to burden the plaintiff’s rights.

Id. (internal citations and quotation marks omitted).

In short, a state must narrowly tailor its law to
advance “compelling” interests if the burden on First
Amendment rights is severe, Norman v. Reed, 502
U.S. 279, 289 (1992), but, if the burden is minimal,
the law only needs to reasonably advance “important”
interests, Timmons v. Twin Cities Area New Party,
520 U.S. 351, 358 (1997).
Although De La Fuente argues that his individual
burden is severe because he might not appear on the
ballot, California’s overall scheme does not significantly
impair ballot access. See Ariz. Libertarian Party v.
Reagan, 798 F.3d 723, 730 (9th Cir. 2015) (“[Courts]
must examine the entire scheme regulating ballot
access.” (quoting Cronin, 620 F.3d at 1217)). Non-major
party candidates can access California’s ballot in three
ways: as minor party candidates, write-in candidates,
or independent candidates. Although the last independent candidate appeared on California’s general

App.6a
election ballot in 1992, minor party candidates have
consistently appeared alongside major party
candidates. De La Fuente’s own expert suggested that
“there’s almost nobody left [for independent candidates]
to petition” because voters have their choice among
major and minor party candidates. Not only do these
choices reduce a voter’s need for independent
candidates, they cut against De La Fuente’s assertion
that the Ballot Access Laws “seriously restrict the
availability of political opportunity.” Nader, 620 F.3d
at 1217-18 (quoting Munro, 31 F.3d at 761-62). The
inclusion of minor party candidates also distinguishes
this case from others where courts have applied strict
scrutiny. See, e.g., Green Party of Georgia v. Kemp,
171 F. Supp. 3d 1340, 1363 (N.D. Ga. 2016) (applying
strict scrutiny when “the restrictions at issue in this
case serve to prevent minor parties from engaging in
the fundamental political activity of placing their
candidate on the general election ballot”); cf. Williams
v. Rhodes, 393 U.S. 23, 31 (1968) (“[T]he right to vote
is heavily burdened if that vote may be cast only for
one of two parties at a time when other parties are
clamoring for a place on the ballot.”).
A plain reading of both the statutes and the record
supports the conclusion that sections 8400 and 8403
are “‘not severe’ restrictions.” Dudum v. Arntz, 640
F.3d 1098, 1106 (9th Cir. 2011) (quoting Rubin v.
City of Santa Monica, 308 F.3d 1008, 1014 (9th Cir.
2002)). Sections 8400 and 8403 are “generally
applicable, even-handed, politically neutral,” and aimed
at protecting the reliability and integrity of the election process. Id.; see Cal. Elec. Code §§ 8400, 8403.
Because the Ballot Access Laws do not severely burden
any constitutional rights, we analyze these laws under a

App.7a
less exacting standard. See Dudum, 640 F.3d at 1106
(“Where non-severe, lesser burdens on voting are at
stake, we apply less exacting review, and a State’s
important regulatory interests will usually be enough to
justify reasonable, nondiscriminatory restrictions.”
(internal alterations and quotations marks omitted)).
The Supreme Court has long recognized the
“important state interest in requiring some preliminary
showing of a significant modicum of support” and “in
avoiding confusion, deception, and even frustration of
the democratic process at the general election.” Jenness
v. Fortson, 403 U.S. 431, 442 (1971). California’s ballot
regulations seek to protect its “important regulatory
interests,” Burdick, 504 U.S. at 434, in streamlining
the ballot, avoiding ballot overcrowding, and reducing
voter confusion. California is not required “to make a
particularized showing of the existence of voter confusion, ballot overcrowding, or the presence of frivolous
candidacies prior to the imposition of reasonable restrictions on ballot access.” Munro v. Socialist Workers
Party, 479 U.S. 189, 194-95 (1986)).
The right to access the ballot is important to voters,
candidates, and political parties alike, but it must be
balanced against California’s need to manage its
democratic process. See Burdick, 504 U.S. at 441.
Although the number of signatures the Ballot Access
Laws require may appear high, it accounts for only
one percent of California’s voter pool, the largest in
the country. This low percentage threshold prevents
candidates without established support from appearing
on the ballot—satisfying California’s interests—without
“seriously restrict[ing] the availability of political
opportunity.” Ariz. Green Party, 838 F.3d at 989
(quoting Munro, 31 F.3d at 762). These laws are also

App.8a
consistent with other ballot access schemes deemed
constitutional. See, e.g., Storer v. Brown, 415 U.S 724,
740 (1974) (“Standing alone, gathering 325,000 signatures in 24 days would not appear to be an impossible
burden [and] . . . would not appear to require an
impractical undertaking for one who desires to be a
candidate for President.”); Jenness, 403 U.S. at 442
(upholding law requiring independent candidates to
gather signatures equivalent to five percent of the
number of registered voters in the previous presidential
election); Nader, 620 F.3d at 1217 (concluding the
burden of collecting signatures equivalent to one percent of the state’s voters in the previous presidential
election was low).
The Ballot Access Laws reasonably relate to California’s important regulatory interests in managing its
democratic process and are proportionate to California’s
large voter population. See Burdick, 504 U.S. at 441.
California has no constitutional obligation “to ‘handicap’ an unpopular candidate to increase the likelihood
that the candidate will gain access to the general
election ballot.” See Munro, 479 U.S. at 198. We affirm
the district court’s dismissal of the case.
AFFIRMED.

App.9a
ORDER OF THE UNITED STATES DISTRICT
COURT CENTRAL DISTRICT OF CALIFORNIA
RE: DEFENDANTS’ MOTION FOR JUDGMENT
ON THE PLEADINGS OR, ALTERNATIVELY,
FOR SUMMARY JUDGMENT [49]
(OCTOBER 4, 2017)
278 F.Supp.3d 1146 (C.D. Ca. 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
ROQUE “ROCKY” DE LA FUENTE,
v.
STATE OF CALIFORNIA AND ALEX PADILLA,
________________________
Case No. CV-16-3242-MWF (GJS)
Before: The Honorable Michael W. FITZGERALD,
U.S. District Judge.
Before the Court is the Motion for Judgment on the
Pleadings or, Alternatively, Summary Judgment, filed
by Defendants the State of California and Secretary
of State Alex Padilla on May 4, 2017. (Docket No.
49). On June 30, 2017, Plaintiff Roque “Rocky” De La
Fuente filed an Opposition, and on July 17, 2017,
Defendants filed a Reply. (Docket Nos. 63, 69).
On August 14, 2017, the Court converted
Defendants’ Motion into a motion for summary judgment and directed Defendants to file a supplemental

App.10a
brief containing citations to the evidentiary record.
(Docket No. 73). On August 28, 2017, Defendants filed
a Supplemental Brief in further support of their Motion. (Docket No. 76). On September 8, 2017, the Court
granted Plaintiff’s request to file a Supplemental Brief,
and on September 25, 2017, Plaintiff filed a Supplemental Brief in further opposition to the Motion.
(Docket Nos. 78, 80). The Court held a hearing on
October 2, 2017.
In this action, Plaintiff challenges the constitutionality of sections 8400 and 8403 of the California
Elections Code, which govern the number of voter
signatures an independent presidential candidate
must obtain to gain a place on the general election
ballot and time frame in which the candidate must
obtain them. These Elections Code provisions do not
impose a severe burden on Plaintiff or his supporters
and bear a reasonable relationship to California’s
legitimate interests in maintaining an uncluttered
and manageable ballot. Accordingly, Defendants’
Motion is GRANTED.
I.

Background

On May 11, 2016, Plaintiff, a candidate running
for President of the United States in the 2016 election,
commenced this action to challenge the constitutionality
of sections 8400 and 8403 of the Elections Code.
(Complaint (Docket No. 1) ¶¶ 3, 16-22). On November
3, 2016, Plaintiff filed a First Amended Complaint
challenging the same provisions. (FAC (Docket No.
30) ¶¶ 14-16).
Elections Code section 8400 governs the number
of registered-voter signatures an independent (nonparty) presidential candidate must obtain in order to

App.11a
have his or her name printed on California’s ballot. It
provides, in pertinent part, that “[n]omination papers
for a statewide office for which the candidate is to be
nominated shall be signed by voters of the state equal
to not less in number than 1 percent of the entire
number of registered voters at the time of the close of
registration prior to the preceding general election.”
(FAC ¶ 1); Cal. Elec. Code § 8400. For the 2016 presidential election, an independent presidential candidate
needed to submit at least 178,039 valid signatures to
satisfy Section 8400’s one-percent requirement. (FAC
¶ 2).
Elections Code section 8403 governs the timeframe
in which an independent presidential candidate must
gather and submit voter signatures. It provides, in
pertinent part, that “[f]or offices for which no filing
fee is required, nomination papers shall be prepared,
circulated, signed, and delivered to the county elections
official for examination no earlier than 193 days before
the election and no later than 5 p.m. 88 days before
the election.” Cal. Elec. Code § 8403; (FAC ¶ 3).
Although Plaintiff makes no such allegations in
his FAC, in opposition to Defendants’ Motion, he states
the following with respect to his participation in the
2016 presidential campaign and his plans for the 2020
campaign:


He qualified for the Democratic primary ballot
in 40 states and six territories, including
California;



He placed third in California’s Democratic
primary, behind Hillary Clinton and Bernie
Sanders (the State’s official vote count shows

App.12a
that Plaintiff finished fifth (Docket No. 52 at
11));


Following his Democratic primary losses, he
continued to campaign as an independent in all
50 states;



Though he understood “the importance of the
electoral votes in California,” and “knew it would
be prudent to appear on the general presidential
ballot as an independent candidate,” he also
understood that gathering 178,039 petition
signatures “was a cost-prohibitive endeavor”;



With “the understanding that [he] would need to
secure up to 200% of the required number of
signatures to account for rejected or disqualified
signatures, [he] calculated that it would cost
[his] campaign between $3-4 million” to gain a
place on California’s general election ballot as
an independent, which “was distinctly cost
prohibitive”;



He gathered more than 200,000 signatures
nationwide and appeared on 20 states’ ballots
as an independent candidate;



He gathered 34,804 signatures in New Mexico;
21,911 in Connecticut; 20,166 in Michigan;
18,753 in North Carolina; 18,001 in Oregon; and
11,491 in Kentucky;



He spent more than $8,000,000 on his campaign
nationwide and more than $500,000 in California, most of which was his own money; and



He has officially declared his intention to run
for President in 2020.

App.13a
(Declaration of Roque “Rocky” De La Fuente (“De La
Fuente Decl.”) (Docket No. 63-1) ¶¶ 4-8, 11-13, 18,
19, 21).
Plaintiff alleges that, in combination, sections
8400 and 8403 violate the First and Fourteenth
Amendments by “unduly burden[ing] Plaintiff and
depriv[ing] him and those who would vote for him the
fundamental right to vote for their candidate in public
office.” (FAC ¶¶ 1, 13). Plaintiff asks the Court to,
among other things, enjoin the continued enforcement
of Sections 8400 and 8403. (Id. at 6).
II.

Legal Standard

In deciding a motion for summary judgment under
Federal Rule of Civil Procedure 56, the Court applies
Anderson, Celotex, and their Ninth Circuit progeny.
Anderson v. Liberty Lobby, 477 U.S. 242 (1986); Celotex
Corp. v. Catrett, 477 U.S. 317 (1986). “The court shall
grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a).
The Ninth Circuit has defined the shifting burden
of proof governing motions for summary judgment
where the non-moving party bears the burden of proof
at trial:
The moving party initially bears the burden
of proving the absence of a genuine issue of
material fact. Where the non-moving party
bears the burden of proof at trial, the
moving party need only prove that there is
an absence of evidence to support the nonmoving party’s case. Where the moving party

App.14a
meets that burden, the burden then shifts to
the non-moving party to designate specific
facts demonstrating the existence of genuine
issues for trial. This burden is not a light
one. The non-moving party must show more
than the mere existence of a scintilla of
evidence. The non-moving party must do
more than show there is some “metaphysical
doubt” as to the material facts at issue. In
fact, the non-moving party must come forth
with evidence from which a jury could
reasonably render a verdict in the nonmoving party’s favor.

Coomes v. Edmonds Sch. Dist. No. 15, 816 F.3d 1255,
1259 n.2 (9th Cir. 2016) (quoting In re Oracle Corp.
Sec. Litig., 627 F.3d 376, 387 (9th Cir. 2010)). “A motion
for summary judgment may not be defeated, however,
by evidence that is ‘merely colorable’ or ‘is not
significantly probative.’” Anderson, 477 U.S. at 249-50.
III. Discussion
A. Legal Framework for Challenges to State
Election Laws
In Anderson v. Celebrezze, the Supreme Court
prescribed the following framework to determine the
constitutionality of a state law that limits a would-be
candidate’s ability to have his or her name added to a
ballot:
[A] court must . . . first consider the character and magnitude of the asserted injury
to the rights protected by the First and
Fourteenth Amendments that the plaintiff
seeks to vindicate. It then must identify and

App.15a
evaluate the precise interests put forward
by the State as justifications for the burden
imposed by its rule. In passing judgment,
the Court must not only determine the
legitimacy and strength of each of those
interests; it must also consider the extent to
which those interests make it necessary to
burden the plaintiff’s rights. Only after
weighing all these factors is the reviewing
court in a position to decide whether the
challenged provision is unconstitutional.
460 U.S. 780, 789 (1983).
About a decade later, in Burdick v. Takushi, the
Court added to the Anderson test:
“Under [the Anderson] standard, the rigorousness of our inquiry into the propriety of a
state election law depends upon the extent
to which a challenged regulation burdens
First and Fourteenth Amendment rights.
Thus, as we have recognized when those rights
are subjected to severe restrictions, the regulation must be narrowly drawn to advance a
state interest of compelling importance. But
when a state election law provision imposes
only reasonable, nondiscriminatory restrictions upon First and Fourteenth Amendment
rights of voters, the State’s important
regulatory interests are generally sufficient
to justify the restrictions.
504 U.S. 428, 434 (1992).
The Ninth Circuit has “summarized the Supreme
Court’s approach as a ‘balancing and means-end fit
framework.’” Ariz. Green Party v. Reagan, 838 F.3d

App.16a
983, 988 (9th Cir. 2016) (quoting Pub. Integrity All.,
Inc. v. City of Tucson, 836 F.3d 1019, 1024 (9th Cir.
2016) (en banc)). “This is a sliding scale test, where
the more severe the burden, the more compelling the
state’s interest must be . . . ” Id. In Arizona Green
Party, the Ninth Circuit held that Arizona’s statute
requiring minor parties to file recognition petitions
at least 180 days before the State’s primary election
imposed only a de minimis burden on the constitutional
rights of the minor-party petitioner and its supporters,
and that the statute served Arizona’s important
interests in avoiding voter confusion and maintaining
an efficient primary system. 838 F.3d at 991-92.
If an election regulation imposes a “severe burden”
on voting rights, “the state must show the law is
narrowly tailored to achieve a compelling governmental
interest—strict scrutiny review.” Chamness v. Bowen,
722 F.3d 1110, 1116 (9th Cir. 2013) (affirming district court’s grant of summary judgment in favor of
California’s Secretary of State where plaintiffs were
challenging legislation that changed “the California
election system by eliminating party primaries and
general elections with party-nominated candidates,
and substituting a nonpartisan primary and a twocandidate runoff”); accord Dudum v. Arntz, 640 F.3d
1098, 1106 (9th Cir. 2011) (affirming district court’s
grant of summary judgment in favor of San Francisco
Director of Elections where plaintiffs were challenging
city’s implementation of “instant runoff voting . . . to
replace [a] two-round runoff”). “Where non-severe,
‘[l]esser burdens’ on voting are at stake, we apply
‘less exacting review, and a State’s important
regulatory interests will usually be enough to justify
reasonable, nondiscriminatory restrictions.’” Dudum,

App.17a
640 F.3d at 1106 (quoting Timmons v. Twin Cities
Area New Party, 520 U.S. 351, 358 (1997); accord
Chamness, 722 F.3d at 1116 (“Nondiscriminatory
restrictions that impose a lesser burden on speech
rights need only be reasonably related to achieving
the state’s important regulatory interests.”) (internal
quotation marks and citations omitted). “[V]oting
regulations are rarely subjected to strict scrutiny.”
Dudum, 640 F.3d at 1106.
B. The Burden Imposed by Sections 8400 and 8403
Is Not Severe
The burden of an election regulation is considered
“severe,” and thus warrants strict scrutiny, where
the regulation “significantly impairs access to the
ballot, stifles core political speech, or dictates electoral
outcomes.” Chamness, 722 F.3d at 1116. An election
regulation will not be deemed “severe,” and will thus
be subject to less searching scrutiny, where the restriction imposed is “generally applicable, evenhanded,
and politically neutral, or if it protects the reliability
and integrity of the election process.” Id. at 1117;
accord Dudum, 640 F.3d at 1106.
In their Motion, Defendants argue that sections
8400 and 8403 do not impose a “severe” burden, and
are thus subject to “more lenient scrutiny.” (See Mot.
at 7-16). As to the applicable level of scrutiny,
Plaintiff argues that, while “many cases speak in
terms of strict scrutiny or reduced levels of scrutiny . . . ,
under any level of scrutiny authorized by the case
law, [Defendants] ha[ve] not demonstrated that the
statute is Constitutional as a matter of law.” (Opp. at
21). It is, however, incumbent upon Plaintiff to point
to specific facts supporting his contention that sections

App.18a
8400 and 8403 are unconstitutionally burdensome; it
is not the State’s burden to marshal evidence negating
every displeased citizen’s bare contention that a law
is unconstitutional. See Chamness, 722 F.3d at 1116
(“We hold that Chamness has failed to establish that
[ballot regulation] SB 6 severely burdened his rights,
and uphold the constitutionality of the statute . . . ”).
Plaintiff does not contend that sections 8400 or
8403 stifle core political speech, dictate electoral
outcomes, or are applied non-uniform or in a politically
biased fashion. The crux of his argument is that these
Elections Code provisions unduly impair his ability
to access California’s general election ballot as an
independent candidate. The Court disagrees.
1. No Evidence of a Severe Burden on
Plaintiff
As an initial matter, Plaintiff has not shown
that sections 8400 and 8403 significantly impaired
his own ability to access the general election ballot,
as impairment implies a causal relationship between
the provisions and Plaintiff’s non-appearance on the
general election ballot. Plaintiff admits that he decided
against even attempting to collect signatures in
California because he determined that the effort
would be “distinctly cost prohibitive.” (De La Fuente
Decl. ¶ 8) (see also Pl. Supp. Br. at 7 (“he refused to
spend the estimated $3,000,000 to gain access to
California’s 2016 general election ballot because it
was, on its face, too expensive”). Plaintiff estimated
that he “would need to secure up to 200% of the required
number of signatures [i.e., 356,078 signatures] to
account for rejected or disqualified signatures,” while
Plaintiff’s designated ballot-access expert, Richard

App.19a
Winger, opined that “a prudent candidate will proactively gather a cushion of approximately 50% more
signatures than required [i.e., 267,058 signatures]
because a percentage of signatures is generally disqualified for various reasons . . . ” (Id. ¶ 7; Declaration
of Richard Winger (“Winger Decl.”) (Docket No. 63-3)
¶ 21). Neither Plaintiff nor Winger provide any basis
for their opinions regarding the need for this many
extra signatures or offer any reasons for the
significant divergence between their opinions. “Based
upon [his] signature gathering efforts during [his]
2016 campaign,” and laboring under the unsupported
assumption that he needed to gather twice the required
number of signatures, Plaintiff “calculated that [gathering signatures in California] would cost . . . between
$3-4 million.” (De La Fuente Decl. ¶ 7).
Plaintiff offers no details about how he arrived
at his calculation that gathering signatures in
California would cost $3 million to $4 million. The cochair of the plaintiff-minority party in Green Party of
Ga. v. Kemp, a recent district court opinion upon
which Plaintiff relies heavily, opined that “a paid
petitioner charges about $2 per signature, in addition
to lodging and travel expenses.” 171 F. Supp. 3d 1340,
1349 (N.D. Ga. 2016). Assuming a rate of $2 per
signature and assuming, arguendo, the reasonableness
of Plaintiff’s opinion that a candidate should attempt
to collect up to two times the number of required
signatures, Plaintiff would have needed to spend
$712,156 collecting signatures in California ($2 x
356,072 signatures), not including room and board
(if, for some reason, he was unable to hire local signature gatherers).

App.20a
Richard Winger offers no opinion on the
approximate expenditure required for each signature,
and Plaintiff does not explain why he believes that a
signature in California, a state with many densely
populated urban centers, would cost four to five times
what it would cost in Georgia. In short, there is no
reason that the Court should credit Plaintiff’s assertion
that it would cost him between $3 million and $4 million
to gather a sufficient number of signatures to appear
on the 2016 general election ballot.
Moreover, Plaintiff seemingly made no effort to
enlist volunteer signature gatherers and/or was
unsuccessful in doing so. As Winger testified during
his deposition, although 1992 independent presidential
candidate Ross Perot spent money opening up offices
around the country, he relied primarily upon volunteer
signature gatherers to earn a place on general election
ballots, including California’s. (Transcript of April 7,
2017 Deposition of Richard Winger (“Winger Depo. Tr.”)
(Docket No. 76-2) at 59-60). Plaintiff contends that he
spent more than $500,000 campaigning in California
and that, while “[c]ampaigning in California, [he] was
featured in excess of 50 television and radio interviews/features.” (De La Fuente Decl. ¶ 20). Certainly,
if Plaintiff were appealing to California voters, he
could have leveraged this money and exposure to
enlist at least some volunteer signature gatherers.
Although Plaintiff’s counsel suggested during the
hearing that volunteer signature gatherers should
not be considered, the lack of any volunteers suggests
a candidate without much serious voter support—i.e.,
precisely who the State is entitled to screen out.
During the 2016 presidential campaign, Plaintiff
spent $8,075,959.73 on his campaign, $8,058,834.60

App.21a
of which consisted of loans from himself, and $17,215.13
of which consisted of individual contributions from
others. (Id. ¶¶ 10, 18, Ex. 1). This massive disparity
suggests that, while Plaintiff was quite enthusiastic
about his own campaign, most voters were not.
And, while Plaintiff gained a spot on the general
election ballots of 20 states (Id. ¶ 11), he did not, by
implication, gain a spot on the general election ballots of
30 states. Again, this absence from general election
ballots suggests a lack of voter enthusiasm not unique
to California. “The State has the undoubted right to
require candidates to make a preliminary showing of
substantial support in order to qualify for a place on
the ballot, because it is both wasteful and confusing
to encumber the ballot with the names of frivolous
candidates.” Anderson, 460 U.S. at 788 n. 9. The record
suggests that Plaintiff did not enjoy anything close to
“substantial support” during the 2016 campaign.
In sum, the evidence in the record indicates that
the barriers to Plaintiff’s gaining a spot on the
general election ballot were a lack of effort, incorrect
and internally conflicting budget projections, and, most
prominently, a lack of voter interest and enthusiasm,
not sections 8400 and 8403. Defendants were under
no obligation to provide Plaintiff with an easy path to
the general election ballot or to help him overcome
the deficiencies in his candidacy. See Munro v. Socialist
Workers Party, 479 U.S. 189, 198 (1986) (“States are
not burdened with a constitutional imperative to reduce
voter apathy or to ‘handicap’ an unpopular candidate
to increase the likelihood that the candidate will gain
access to the general election ballot.”).

App.22a
2. No Evidence of a Severe Burden on Other
Candidates
Plaintiff also has not shown that sections 8400
and 8403 have unduly impaired other presidential
candidates from accessing California’s general election
ballot. In the 11 presidential elections since sections
8400 and 8403 were enacted, there have been between
five and eight candidates on each general election
ballot. (Declaration of Amie Medley (“Medley Decl.”)
(Docket No. 51) Exs. 7-17; Winger Depo. Tr. at 99:1199:13). For example, in the 2012 election, there were
six candidates from the Democratic, Republican,
American Independent, Green, Libertarian, and Peace
and Freedom parties on California’s general election
ballot. (Medley Decl. Ex. 16). Most recently, in the
2016 election, there were five candidates from each of
those parties (President Trump was listed as both
the Republican and American Independent candidate)
on the general election ballot. (Medley Decl. Ex. 17).
During the hearing, Plaintiff’s counsel acknowledged
that “California allows more candidates onto the ballot
than many other states.”
Both in his briefing and during the hearing,
Plaintiff has urged the Court to focus solely on the
number of independent candidates that have appeared
on recent general election ballots and to ignore the
overall number of major-and minor-party candidates
that have successfully accessed the general-election
ballot under the current election-law regime. (See, e.g.,
Opp. at 21 (“the proper scope of inquiry is the burden
placed on a candidate seeking ballot access by a
particular means (i.e., as an independent candidate).”)).
But focusing solely on independent candidates—rather
than major-party, minor-party, and independent candi-

App.23a
dates—is contrary to recent Ninth Circuit authority,
which provides that courts “‘must examine the entire
scheme regulating ballot access.’” Ariz. Libertarian
Party, 798 F.3d at 730 (quoting Nader v. Cronin, 620
F.3d 1214, 1217 (9th Cir. 2010)).
During the hearing, Plaintiff’s counsel invoked

Anderson to argue that sections 8400 and 8403 reflect

some level of animus towards independent candidates.
In Anderson, the Supreme Court struck down an Ohio
law that required independent presidential candidates
to file a statement of candidacy 75 days before the
state held its party primary elections; in effect, this
prevented candidates from making any serious effort
to win a party primary and then, if unsuccessful,
running in the general election as an independent.
See Anderson, 460 U.S. at 806. It also prevented all
independent candidates (whether they ran in a primary
or not) from waiting to see what happens in the party
primaries before deciding whether to run as an
independent. See id. at 799. Ohio’s “early filing deadline . . . discriminate[d] against independents.” Id. at
804. Here, Plaintiff ran in the Democratic primary
and, after he lost, still had time to try to secure a
spot on the general election ballot as an independent;
he just chose not to. Also, Plaintiff acknowledges that
“California’s statute for obtaining ballot access by
forming a new qualified party is even more onerous”
than sections 8400 and 8403(Opp. at 30), so there is
no discrimination against independent candidates visà-vis partisan candidates. Despite its emphasis on
independent candidates, Anderson is not supportive
of Plaintiff’s position.
In the 11 elections that have taken place since
sections 8400 and 8403 were enacted, six independent

App.24a
candidates have appeared on California’s general
election ballots. (Medley Decl. Exs. 7-11). Plaintiff
makes much of the fact that the most recent
independent candidate to appear on California’s general
election ballot was Ross Perot, in the 1992 election,
but does not explain why the Court should not look
beyond 1992 or what, if anything, changed post-1992
that made it less likely for an independent candidate
to gain a place on the ballot.
During his deposition, Winger offered a logical
reason for the lack of independent candidates on the
ballot in more recent elections that is unrelated to
the allegedly excessive burdens imposed by sections
8400 and 8403: “Because California has these minor
parties [o]n the ballot, that kind of—there’s almost
nobody left to petition.” (Winger Depo. Tr. at 100:1100:3). In other words, presidential candidates who
might otherwise garner enough support to run as
independents are opting to affiliate with lesser-known
parties. Where California voters are consistently able
to vote for candidates outside of the two major parties,
California has no constitutional obligation to counteract
the trend toward minor-party affiliation by lowering
the barriers for independent candidates.
California’s general election situation is a far cry
from the situation in Green Party of Georgia, the
main case on which Plaintiff relies to argue that a
one-percent signature requirement may be unconstitutionally burdensome. The district court in Green
Party of Georgia paid particular attention to the fact
that Georgia’s one-percent signature requirement
and timing requirements led to a consistent dearth of
presidential candidates from outside of the Democratic
and Republican parties, even when certain third-

App.25a
party or independent candidates, such as Ralph Nader,
were successful in gaining spots on the ballots of
almost every other state. The district court noted
that “[s]ince the passage of Georgia’s current code
section in 1986, Ross Perot qualified as an independent
presidential candidate in 1992 and 1996, as did Pat
Buchanan in 2000,” but that no other “‘minor party’
. . . has qualified a presidential candidate for ballot
access by petition since Mr. Buchanan in 2000.”
Green Party of Ga., 171 F. Supp. 3d at 1348. This
absence meant that “[t]he voters of Georgia [did] not
have the political choice available to citizens in other
states.” Id. at 1363. Whereas Georgia’s one-percent
and timing requirements led to a severe constriction
of voter choice vis-à-vis other states, California’s onepercent and timing requirements have not. As Winger,
Plaintiff’s ballot-access expert, noted during his deposition, the Constitution and Marxist parties “are about
the only minor parties left that aren’t on the ballot in
California presidential elections.” (Winger Depo. Tr.
at 100:23-100:25).
Finally, California’s signature-gathering requirements are not objectively unreasonable or far outside
of the mainstream. California’s requirement that an
independent candidate obtain signatures from one
percent of the electorate is in line with the requirements in other states. (See Medley Decl. Ex. 4)
(summarizing signature requirements by percentage of
registered or prior-election voters in other states,
including: 3% in Arizona, New Mexico and Oklahoma;
2% in Indiana, North Carolina, Pennsylvania, and
Wyoming; and 1% in Delaware, Florida, Hawaii, Maryland, Minnesota, Nevada, and Oregon). And the raw
number of signatures an independent candidate would

App.26a
need to collect to appear on the general election ballot
is not unreasonable given California’s status as the
most populous state with the largest number of
Electoral College votes.
Accepting as true Winger’s opinion that a prudent
candidate should gather 150% of the required number
of signatures to account for disqualification of some
of those signatures, in order to appear on the 2016
general election ballot, Plaintiff would have needed
to gather 267,058 signatures in the 105-day window
provided by section 8403. The Supreme Court has
viewed substantially more arduous signature-gathering
requirements as within the realm of reason for someone
who hopes to ascend to the Presidency. See Storer v.
Brown, 415 U.S. 724, 740 (1974) (noting that “gathering
325,000 signatures in 24 days would not appear to be
an impossible burden” or “an impractical undertaking
for one who desires to be a candidate for President.”).
In sum, sections 8400 and 8403 do not impose a
severe burden on Plaintiff or anyone else hoping to
gain a place on the general election ballot as an
independent presidential candidate.
C. Sections 8400 and 8403 are Reasonably Related
to California’s Important Regulatory Interests
In light of the fact that sections 8400 and 8403
do not impose a severe burden on those hoping to gain
a place on California’s general election ballot, they
are subject to less exacting scrutiny, meaning that
they “need only be reasonably related to achieving
the state’s important regulatory interests.” Chamness,
722 F.3d at 1116; Cf. Dudum, 640 F.3d at 1106.
Defendants have identified those interests as, inter
alia, keeping the ballot within manageable limits,

App.27a
avoiding ballot overcrowding, and avoiding voter confusion. (See Mot. at 16; Reply at 9). These governmental
interests have consistently been recognized as
important. See, e.g., Bullock v. Carter, 405 U.S. 134,
145 (1972); Munro, 479 U.S. at 194-95.
Plaintiff incorrectly suggests that California must
garner evidence of actual ballot overcrowding and
voter confusion to justify sections 8400 and 8403.
(See Pl. Supp. Br. at 11) (“[I]t is insufficient for the
state to merely assert a defense[;] it must present
evidence of a real problem that its ballot access limiting statutes seek to address. In addition to having a
legitimate reason for its practice, the state must also
show that its practice actually corrects or mitigates
the problem that justifies its action.”)). That is not
correct. California may invoke those interests generally
and does not need to “prove actual voter confusion,
ballot overcrowding, or the presence of frivolous
candidates as a predicate to the imposition of reasonable
ballot access restrictions”; it need not “sustain some
level of damage before the legislature [can] take
corrective action.” Munro, 479 U.S. at 195.
Plaintiff’s attempt to challenge the relationship
between sections 8400 and 8403 and California’s
important interests consists of little more than Winger’s
opinion that the State could avoid ballot overcrowding
and voter confusion by requiring independent candidates to obtain something more than 5,000 signatures
and something less than 1% of eligible voters’ signatures. (See Pl. Supp. Br. at 6 (“Richard Winger’s expert testimony that states with a 5,000 election petition signature requirement have not experienced ‘ballot
clutter’ and the alleged associated risk of ‘voter confusion’ is left uncontested in this case.”).

App.28a
During the hearing, Plaintiff’s counsel argued
that Defendants failed to “refute” Winger’s opinion
that most states can avoid “ballot clutter” with something around a 5,000-signature requirement. Plaintiff
misapprehends the nature of the Court’s examination.
Under the less searching scrutiny that non-severe
ballot-access restrictions (like California’s) receive,
California’s one-percent requirement does not need to
be the best way to avoid ballot overcrowding or even
a particularly good way to avoid ballot overcrowding;
it just needs to be a reasonable way to avoid ballot
overcrowding.
Perhaps the strongest evidence that sections 8400
and 8403 are reasonably related to California’s interest
in avoiding ballot overcrowding is that in each election
year since their enactment, California voters have
enjoyed a relatively broad choice of presidential candidates. According to Plaintiff, “California’s statute for
obtaining ballot access by forming a new qualified
party is even more onerous tha[n] the statutory scheme
challenged by Mr. De La Fuente.” (Opp. at 30). Even
under this “more onerous” path to the ballot for
partisan candidates (i.e., win an existing-party primary
or form a new party), California has had between five
and eight presidential candidates on each of the last
11 general election ballots. The fact that this many
candidates, from both major and minor parties, have
been able to consistently access the general election
ballot under these more onerous requirements bolsters
Defendants’ position that section 8400’s one-percent
signature requirement is reasonably related to its
important interests in maintaining a manageable
and comprehendible ballot. Plaintiff has offered no
evidence to suggest that the relationship between

App.29a
sections 8400 and 8403 and California’s legitimate
interests is unreasonable.
Plaintiff’s argument, ultimately, is that candidates
who lack a modicum of voter support should be able
to force their way onto an already full and diverse
general election ballot and then attempt to gather
supporters later. Common sense and legal precedent
say that this argument is unavailing.
Accordingly, Defendants’ Motion is GRANTED and
the action is DISMISSED.
This Order shall constitute notice of entry of
judgment pursuant to Federal Rule of Civil Procedure
58. The Court ORDERS the Clerk to treat this Order,
and its entry on the docket, as an entry of judgment.
Local Rule 58-6.
IT IS SO ORDERED.

App.30a
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const. amend. XIV, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
California Election Code Section 8400
Nomination papers for a statewide office for which
the candidate is to be nominated shall be signed by
voters of the state equal to not less in number than
1% of the entire number of registered voters of the
state at the time of the close of registration prior
to the preceding general election. Nomination
papers for an office, other than a statewide office,
shall be signed by the voters of the area for which
the candidate is to be nominated, not less in

App.31a
number than 3 percent of the entire number of
registered voters in the area at the time of the close
of registration prior to the preceding general
election. Nomination papers for Representative in
Congress, State Senator or Assembly Member, to
be voted for at a special election to fill a vacancy,
shall be signed by voters in the district not less
in number than 500 or 1 percent of the entire vote
cast in the area at the preceding general election,
whichever is less, nor more than 1,000.
California Election Code Section 8403(a)(2)
For offices for which no filing fee is required,
nomination papers shall be prepared, circulated,
signed, and delivered to the county elections official
for examination no earlier than 193 days before the
election and no later than 5 p.m. 88 days before the
election.

App.32a
DECLARATION OF RICHARD WINGER
IN SUPPORT OF OPPOSITION TO MOTION
FOR JUDGMENT ON THE PLEADINGS/
SUMMARY JUDGMENT
(JUNE 30, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
________________________
ROQUE “ROCKY” DE LA FUENTE,

Plaintiff,
v.
STATE OF CALIFORNIA and
ALEX PADILLA, California Secretary of State,

Defendants.

________________________

Case No. 2:16-cv-03242-MWF-GJS
Before: The Hon. Michael W. FITZGERALD,
U.S. District Judge.
I, RICHARD WINGER, declare:
1. I am over the age of 18 and competent. I have
personal knowledge of the facts stated in this declaration and, if sworn as a witness, could testify
competently thereto. I do hereby make this declaration
to be used in the above-entitled case, and being duly
sworn depose and say as follows:

App.33a
2. I earned my Bachelor of Arts in Political Science
at University of California, Berkeley in 1966, and
conducted graduate studies in Political Science at
University of California, Los Angeles from 1966 through
1967. I am the creator and Editor of Ballot Access
News, a free and non-partisan internet and paper
publication regarding American ballot access news
nationwide. I update the Ballot Access News daily,
and I produce and distribute the paper publication on
a monthly basis. I began Ballot Access News in 1985
and continue to operate the publication to date. I am
currently on the Editorial Board of Election Law
Journal, the leading peer-reviewed publication on
election design and reform. A true and correct copy of
my current C. V. is attached hereto as Exhibit 1.
3. I have dedicated 52 years to the study of election
law and ballot access. I primarily rely on my own
research and investigation, as there were very few
formal resources on the topic when I began my studies
in the field. My research generally consists of the
following methods/practices:
4. I started in 1965 by requesting all of the election codes from each of the state government offices via
mail. I researched the origin and legislative intent of
each state’s ballot access laws using the Stanford law
library stacks. The Stanford had copies of all the past
election codes and related statutes. I researched the
publications of nationally organized minor parties,
dating back to the late 19th century. In studying minor
parties, I also examined the various ballot access
struggles they encountered. I have collected election
returns back to 1870 for all states, for all statewide
offices, and U.S. House of Representatives. I have
collected data about the number of registered voters in

App.34a
each state dating back approximately 50 years (data
collection beyond that time frame often does not exist
is or is inaccurate). This data made it possible for me
to calculate the number of signatures for all past presidential elections, as well as midterm elections, for
statewide office. I have studied countless publications,
academic articles, essays, compendiums on ballot access
laws, including a particularly essential reference book
published in the 1910’s that described all the state
ballot access laws.
4. Based on these methods, and additional
research, I have compiled an Appendix titled “List of
Instances When States Required More than 5,000
Signatures for President, Together with List of
Petitioning Presidential Candidates Who Met that
Requirement” which, as stated, shows historically
how many independent presidential candidates and
newly qualified parties have been put on state
presidential ballot via petition requiring more than
5,000 signatures. A true and correct copy of that
Appendix is attached hereto as Exhibit 2 (hereinafter,
“Appendix”).
5. I have been recognized as an expert witness
in the areas of outsider candidates and ballot access
by federal courts in Alabama, Arkansas, California,
New York, and Oklahoma. I have appeared as a commentator on ballot access on NBC, ABC, CNN, and
NPR. I have been widely published and have had the
privilege of appearing in several speaking engagements.
A more complete list of my publications, testimonial
and expert testimonial appearances, and speaking
engagements is included in Exhibit 1.
6. The purpose of this declaration is to show
through historical evidence that, if a state requires

App.35a
even slightly more than 5,000 signatures for an
independent presidential candidate or the presidential
candidate of an unqualified (i.e. minor) party to get
on the ballot, it will never have an overcrowded
presidential general election ballot. Additionally, this
declaration is intended to demonstrate that, based on
the historical record, the signature requirements
specifically imposed by California Election Code on
independent presidential candidates is wildly excessive,
if the actual purpose is to prevent an overcrowded
ballot or voter confusion, or to require the candidate
to demonstrate a modicum of support.
7. The first presidential election in which any
state used government-printed ballots was the 1892
election. When a state government takes responsibility
for printing general election ballots, it must have a
law governing how candidates get on the ballot. As of
2012, there were 1,459 instances when a state held a
presidential general election, and used a governmentprinted ballot. Out of those 1,459 instances, in 1,058
of them, the state provided some means for an independent presidential candidate, or the nominee of an
unqualified party, to get on the ballot with a showing
of support of 5,000 voters or fewer. In other words, in
these 1,058 instances, the state provided “outsider”
presidential candidates with access to the general
election ballot with either no petition, or a petition
that required a number of signatures ranging from 25
signatures to 5,000 signatures.
8. The most crowded general election ballot for
president in U.S. history was the Colorado’s general
ballot in 2016. That year, twenty-two candidates were
listed. Colorado did not require any petition at all for
an independent presidential candidate, or the presi-

App.36a
dential candidate of an unqualified party; instead, the
candidate simply had to pay a filing fee of $1000.
9. Arkansas, which, as recently as 1996, let any
independent presidential candidate, or the presidential
candidate of an unqualified party, on the ballot just
by request; no fee nor petition was required. The
Arkansas 1996 ballot had 13 presidential candidates.
Afterwards Arkansas started requiring 1,000 signatures
for such candidates.
10. However, the states that have required more
than 5,000 signatures for such “outsider” candidates,
but almost always far fewer than 50,000, have never
had more than 8 candidates. The list of the 401
instances in which a state required “outsider” candidates to submit a petition of more than 5,000 signatures (or, in the case of California, required newlyqualifying parties to have at least 5,000 registered
members) is in the Appendix.
11. The list of 401 instances where states required
more than 5,000 signatures shows that, 33% of the
time, no independent presidential candidate, or presidential candidate of an unqualified party, was able
to complete the petition and get on the ballot (134
instances). In another 20% of the instances, only one
independent candidate or unqualified party successfully completed the petition (82 instances). In yet
another 20% of the instances, only two candidates
qualified (also 82 instances). There were an additional
13% of the instances where three candidates were able
to complete the petition and qualify (51 instances). In
8% of the instances, four candidates were able to
complete the petition (33 instances). In 4% of the
instances, five candidates qualified (15 instances).
Finally, in 1% of the instances, six candidates completed

App.37a
the petition hurdle (4 instances). There is not one single
instance when more than six candidates or parties
successfully completed the petition. In other words,
out of the 401 historical instances where a state
required more than 5,000 signatures to access the
ballot by petition, no more than six independent or
unqualified party candidates successfully reached
the ballot.
12. Also, it is notable that all four instances in
which six petitions succeeded were in Illinois, a state
which considers all petitions and petition signatures
to be valid if no challenge is made, even if the petition on its face obviously lacks the required 25,000
signatures. Even one signature on a petition will
succeed, if there is no challenge. For example, the
New Party got on the ballot in Illinois with just one
signature in 2008. So, if Illinois is discounted, there
are no historical instances with more than five successful “outsider” petitions on a presidential ballot,
where the state required more than 5,000 signatures.
13. For the 2016 election, California required
178,039 signatures for an independent presidential
candidate to get on the general election presidential
ballot. It is obvious from the extensive historical record,
that if the state interest in a petition requirement is
to keep the ballot from being over-crowded or confusing, the 178,039 requirement far exceeds what is necessary.
14. To exacerbate this generally insurmountable
requirement, California, unlike many other states,
also requires that the entirety of these 178,039 signatures be gathered within a 105-day window. This
equals 1696 signatures every day during that window,
not counting additional signatures needed to account

App.38a
for the inevitable disqualification of a portion of the
signatures.
15. California’s 105-day window to gather 178,039
qualified signatures is not a generous time frame, in
that the majority of states do not have a “start date”
before which would be candidates cannot gather signatures. The deadline to submit signatures is generally
of little consequence if no start date is prescribed, as
the potential candidate has a much larger window to
gather signatures. Any contention that California’s
105-day window is “generous”, is misleading at best.
16. California allows presidential primary candidates access to the ballot with no petition whatsoever, and no fee, if they are generally advocated for or
recognized throughout the United States or California as actively seeking the nomination of a major or
qualified party for President. In the Libertarian presidential primary in California in 2016, twelve
candidates were listed. Having twelve candidates on
that presidential primary ballot did not cause voter
confusion or any other apparent harm. The 2016
Democratic presidential primary in California listed
seven candidates, and that does not seem to have
caused confusion.
17. Reasonable requirements can, of course, be
implemented by states to prevent “vanity candidates”
from unnecessarily over-crowding a presidential ballot.
In my opinion, a “vanity candidate” is one who lacks
even a modicum of support.
18. Such presidential candidates, i.e. those
without a modicum of support, have historically never
been able to obtain even 5,000 signatures. None of
the parties or candidates listed in the Appendix, all

App.39a
of whom surmounted a petition hurdle of more than
5,000 signatures, were vanity candidates.
19. The only independent presidential candidates
who have ever surmounted a petition hurdle greater
than 5,000 signatures in United States presidential
general election history were Ross Perot, John
Anderson, Ralph Nader, Eugene McCarthy, and Lyndon
LaRouche. Dwight Eisenhower is listed in the Appendix, because he qualified as an independent candidate
in South Carolina in 1952, which required 10,000
signatures; also, Harry F. Byrd is listed, because
independent electors pledged to him qualified in 1956
in South Carolina. All of the other entries in the
Appendix were the presidential nominees of minor
parties, and virtually all of them had historical and
social significance.
20. Qualifying signatures, for petition purposes,
are a recognized commodity in American political
campaigns. More specifically, in modern times, signatures for political petitions are generally acquired on a
“price per signature” basis. This price can vary by
state, district, election cycle, and urgency (impending
deadline). All national candidates, generally advocated
for or recognized throughout the United States as
actively seeking the office of President utilize the
services of companies that gather signatures for a
fee. In 2016, they included Hillary Clinton, Donald
Trump, and Bernie Sanders.
21. In addition to the statutorily prescribed
number of qualified signatures, a prudent candidate
will pro-actively gather a cushion of approximately
50% more signatures than required, because a percentage of signatures is generally disqualified for

App.40a
various reasons, such as address, identification and
registration complications.
22. Based upon the 178,039 required signatures
in California for an independent presidential candidate
in 2016, and the prudent gathering of an additional
50% signatures within the 105-day window, an independent presidential candidate would needed to obtain
267,058 signatures in 2016. The expense of this petition circulation would have been astronomically high to
qualify for the general presidential ballot in California in 2016 via petition.
23. In California, no statewide petition to place
an independent presidential candidate has succeeded
since 1992, when self-funded billionaire Ross Perot
qualified as an independent presidential candidate.
24. California requires more signatures for
independent presidential candidates than all 49 other
states. Florida’s petition requirement comes in a distant second at approximately 60,000 fewer signatures.
California and Florida are the only two states in the
nation that required more than 100,000 signatures in
2016. The lowest signature requirement for independent presidential candidates was 275 in Tennessee in
2016. The median number of required signatures
throughout the United States for an independent candidate in 2016 was 5,000, some 173,039 less than California in 2016.
25. An independent presidential candidate seeking access to the general ballot in all 50 states in 2016
would have needed to gather approximately 821,368
valid signatures. However, California’s 178,039 signature requirements in 2016 accounted for over 21.7%
of all signatures required nationwide. Likewise, Cali-

App.41a
fornia, would represent over 21.7% of the total cost of
accessing the ballot in all 50 states via petition.
26. The nationwide trend regarding petition
signature requirements for “outsider” candidates has
been towards a significant reduction in either the
required raw number of signatures, or the percentage
of voters’ signatures needed. For example, Pennsylvania
reduced required signatures by 77%, from 21,775 to
exactly 5,000. See Constitution Party v. Cortez, 5:12CV-02726-LS, p. 1, ¶ 2 (E.D.P.A. June 30, 2016). In
2013, Virginia legislature pro-actively reduced the
required number of signatures for an independent
candidate by 50%, from 10,000 to 5,000 VA S.B. 690,
Ch. 521, Reg. Sess., March 18, 2016. On April 3, the
Maryland House passed HB 529. It lowers the number
of signatures for a statewide independent from 1% of
the number of registered voters to exactly 10,000
signatures. The Oklahoma Senate has passed two bills
that improve ballot access. SB 145 passed 41-2 on
March 8. It eliminates the mandatory petition for
independent presidential candidates, and the presidential nominees of unqualified parties, if they pay
a filing fee of $17,500.
27. This trend towards a raw number of required
signatures is sound. Using a percentage of registered
voters is not an accurate representation of potential
support because the basis (number of registered voters)
is an inherently misleading number. The sum total of
registered voters in a given state is generally inaccurate
because of (1) poor record keeping by the state, such
as in Georgia (2) the fact that several states in recent
years have not maintained precise data on the number
of registered voters (such as Minnesota, Wisconsin,
Mississippi, and North Dakota), and/or (3) the existence

App.42a
of “deadwood”. Deadwood refers to erroneous voter
registrations within a state that no longer reflect one
person who is alive and a resident of the state.
Deadwood occurs by duplicative flings (such as married
women who change their maiden name), failure to
remove deceased persons, multiple filings by one
individual at an updated address, and people who move
out of state. A reasonable raw number of signatures,
or a reasonable percentage of voters who voted in the
last presidential election, more accurately reflect a
‘modicum of support’ and better address the state’s
interest in avoiding voter confusion and an overcrowded
ballot.
28. Only 11 states require more than 10,000 petition signatures from an independent presidential seeking access to the general election presidential ballot.
Only 7 states require more than 25,000 Signatures.
Only 4 states require more than 45,000 signatures.
29. Based on the foregoing, and my decades of
research into ballot access laws, it is my opinion that
California’s 1% of the number of registered voters signature requirement, in combination with the restrictive
105-day window, is prohibitively expensive and unduly
burdensome for independent presidential candidates.
It is not necessary to prevent an overcrowded ballot,
voter confusion, or candidates on the ballot without
some modicum of support.
29. It is also my opinion that a petition requirement of 5,000 or more raw signatures would address
the state’s concerns in avoiding an overcrowded ballot
and voter confusion, while lowering the burden on
independent and unqualified presidential candidates to
a reasonable level.

App.43a
I declare under penalty of perjury under the laws
of the State of California and the United States that
the foregoing is true and correct.
/s/ Richard Winger
Dated: 30 June, 2017

